<html>
<title> - NOMINATIONS OF HON. SARAH SALDAN˜A, RUSSELL C. DEYO, AND HON. MICKEY D. BARNETT</title>
<body><pre>[Senate Hearing 113-707]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-707
. 
                       NOMINATIONS OF HON. SARAH SALDANA, 
                  RUSSELL C. DEYO, AND HON. MICKEY D. BARNETT

=======================================================================

                                HEARING

                               BEFORE THE
                               
                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             SECOND SESSION

                               __________

           NOMINATIONS OF HON. SARAH SALDANA, TO BE ASSISTANT
           SECRETARY FOR IMMIGRATION AND CUSTOMS ENFORCEMENT,
         U.S. DEPARTMENT OF HOMELAND SECURITY, RUSSELL C. DEYO,
        TO BE UNDER SECRETARY FOR MANAGEMENT, U.S. DEPARTMENT OF
 HOMELAND SECURITY, AND HON. MICKEY D. BARNETT, TO BE A GOVERNOR, U.S. 
                             POSTAL SERVICE

                               __________

                           SEPTEMBER 17, 2014

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        

        
        
                           U.S. GOVERNMENT PUBLISHING OFFICE
92-905 PDF                      WASHINGTON : 2015                           
        
      
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="187f6877587b6d6b6c707d7468367b777536">[email&#160;protected]</a>  
       
        
        
        
        
        
        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                  Gabrielle A. Batkin, Staff Director
               John P. Kilvington, Deputy Staff Director
          Stephen R. Vina, Chief Counsel for Homeland Security
            Deirdre G. Armstrong, Professional Staff Member
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
               Andrew C. Dockham, Minority Chief Counsel
         Daniel P. Lips, Minority Director of Homeland Security
                 Sarah Beth Groshart, Minority Counsel
Scott M. Behen, Minority U.S. Government Accountability Office Detailee
Joseph D. Moeller, Minority U.S. Postal Service Office of the Inspector 
                            General Detailee
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Coburn...............................................     9
Prepared statements:
    Senator Carper...............................................    35
    Senator Coburn...............................................    37

                               WITNESSES
                     Wednesday, September 17, 2014

Hon. John Cornyn, A U.S. Senator from the State of Texas.........     1
Hon. Michael Chertoff, Executive Chairman and Co-Founder, 
  Chertoff Group, and Former Secretary, U.S. Department of 
  Homeland Security..............................................     5
Hon. Sarah R. Saldana to be Assistant Secretary for Immigration 
  and Customs Enforcement, U.S. Department of Homeland Security
    Testimony....................................................    11
    Prepared statement...........................................    41
    Biographical and financial information.......................    43
    Letter from the Office of Government Ethics..................    77
    Responses to pre-hearing questions...........................    80
    Responses to post-hearing questions..........................   124
    Letters of support...........................................   126
Russell C. Deyo to be Under Secretary for Management, U.S. 
  Department of Homeland Security
    Testimony....................................................    13
    Prepared statement...........................................   130
    Biographical and financial information.......................   132
    Letter from the Office of Government Ethics..................   153
    Responses to pre-hearing questions...........................   156
    Responses to post-hearing questions..........................   172
    Letters of support...........................................   184
Hon. Mickey D. Barnett to be a Governor, U.S. Postal Service
    Testimony....................................................    15
    Prepared statement...........................................   190
    Biographical and financial information.......................   195
    Letter from the Office of Government Ethics..................   215
    Responses to pre-hearing questions...........................   219
    Responses to post-hearing questions..........................   231


                 NOMINATIONS OF HON. SARAH R. SALDANA,.
               RUSSELL C. DEYO AND HON. MICKEY D. BARNETT

                     WEDNESDAY, SEPTEMBER 17, 2014

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, presiding.
    Present: Senators Carper, Coburn, and Ayotte.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. Well, good morning, one and all. 
Bienvenido. We are glad you are here and look forward to 
getting to know our nominees, better.
    We are honored that we have been joined by one of my 
favorite people in the Senate, Senator John Cornyn from Texas. 
We are delighted that you are here and able to introduce your 
constituent.
    We are happy to see our former Secretary here. Judge, great 
to see you, Michael, my neighbor across the Delaware River.
    And, Mickey, very nice to see you, Mr. Chairman. Thank you 
for your service.
    I am just going to lead off and ask Senator Cornyn if he 
would make whatever remarks he feels appropriate. Again, we are 
delighted that you could come. Thank you.

OPENING STATEMENT OF THE HONORABLE JOHN CORNYN, A UNITED STATES 
                SENATOR FROM THE STATE OF TEXAS

    Senator Cornyn. Thank you, Mr. Chairman. I am proud to be 
here this morning to introduce one of my constituents, Sarah 
Saldana----
    Chairman Carper. How many do you have, any idea?
    Senator Cornyn. Twenty-six million, but she is definitely 
up at the top of that list of the most important----
    Chairman Carper. I have 881,412. [Laughter.]
    Senator Cornyn. As you know, Ms. Saldana has been nominated 
to serve as the Department of Homeland Security's (DHS) 
Assistant Secretary for Immigration and Customs Enforcement 
(ICE), a position of profound importance to our country, and 
particularly to my State, our State of Texas.
    ICE is one of the Nation's largest law enforcement 
agencies, with more than 19,000 employees and responsibilities 
including the interior enforcement of our immigration laws, 
national security, drug interdiction, and fighting child 
exploitation.
    As our Nation experiences a surge of illegal immigration 
and accompanying criminal activity by those who make a living 
off of exploiting others, it is more important than ever that 
the next person who leads this agency will do so with strength 
and with integrity.
    Ms. Saldana is a native of Corpus Christi, Texas. She 
learned from a young age the importance of hard work and 
education. She was one of seven children born to working class 
parents. She watched her mother study to become a nurse and 
work nights to provide for the family. In turn, she studied 
hard in school and told herself, what you think you can do, you 
can do. And, certainly, Ms. Saldana has accomplished great 
things.
    In 2011, Ms. Saldana became the first Latina United States 
Attorney in Texas history, and only the second woman to hold 
that position in the 135-year history of Texas's Northern 
District, a region that includes the Dallas-Fort Worth 
metroplex and spans 100 counties and stretches across 95,000 
square miles.
    Chairman Carper. How many counties do you have?
    Senator Cornyn. Two-hundred-and-fifty-four.
    Chairman Carper. We have three. [Laughter.]
    Senator Coburn. He visits all three of them every year. 
[Laughter.]
    Senator Cornyn. We have more cows than people in some of 
them. [Laughter.]
    Chairman Carper. We have 300 chickens for every person. 
[Laughter.]
    Senator Cornyn. In her role as U.S. Attorney and prosecutor 
over the past decade, Ms. Saldana has served our State with 
honor, fighting corrupt public officials, organized crime, sex 
traffickers, and other dangerous criminals.
    Throughout her career, Ms. Saldana has developed a 
reputation for her decisive and fair temperament and her 
commitment to excellence. If respect for the rule of law is our 
standard, and I think it should be, we would be hard pressed to 
find a person more qualified to enforce the law than Ms. 
Saldana.
    For this reason, I was proud to lead the fight for her 
nomination as United States Attorney, along with Senator 
Hutchison, and I am proud to introduce her to Members of the 
Committee here today. I am glad to see my colleague and friend 
Senator Coburn here as the Ranking Member.
    Everyone here today recognizes that there are enormous 
challenges facing ICE in the coming years, and I have talked to 
Ms. Saldana about those quite candidly and I think she 
understands the nature of the challenge that confronts her and 
confronts the Department of Homeland Security in these 
challenging times.
    And, I even asked her, why in the world would somebody who 
has such a great reputation and has accomplished so much as 
United States Attorney and all the public service she has 
performed in the past, why would you want this job, where you 
are actually not going to be able to call all the shots from a 
policy standpoint. That is going to come from above, including 
the President of the United States. And, her comment to me, 
which I genuinely appreciate, is she said, ``Well, I have to 
try.'' To me, that is a pretty good answer, because given all 
the challenges and the divisions that we have in the country, 
particularly when it comes to the immigration issue, I admire 
someone who said, this is a messy business, but I have to try, 
and so I admire that.
    So, I think this hearing gives you and the Senate an 
opportunity for an open and honest conversation with Ms. 
Saldana about exactly what she would do, if confirmed, to 
address these challenges. I do not need to urge this Committee 
to take its time and ask her the hard questions. I am sure you 
will.
    But, I do have a request, Mr. Chairman. I do not serve on 
this Committee, but I do serve on the Senate Judiciary 
Committee, and as you know, the Senate Judiciary Committee has 
a lot of interaction with ICE and the Department of Homeland 
Security, as well. I mentioned this to Ms. Saldana, but, of 
course, this will be decided by you and by Chairman Leahy and 
the Majority Leader, but I think it would be enormously 
productive if, following this Committee's hearing and decisions 
with regard to this nomination, that there be a sequential 
referral to the Senate Judiciary Committee.
    I have signed a letter, along with Ranking Member Senator 
Grassley, requesting that, and I think that would do a lot, I 
think, to help Senators gain the sort of familiarity and 
confidence that I have in Ms. Saldana as a person, but also 
help her when she is confirmed develop the kinds of 
relationships that are going to be very important and very 
productive to her chance to succeed in this very difficult job. 
So, I hope you will join me in that request.
    The most difficult question facing the next leader of ICE 
is how they will respond to President Obama's upcoming actions 
on immigration enforcement. As we all know, the President has 
announced that after the November elections, he will 
unilaterally issue a series of Executive Orders that will 
attempt to change our Nation's immigration laws without the 
consent of Congress. I believe such actions would violate our 
Constitution and the laws of the land, and I have mentioned 
that quite candidly to Ms. Saldana, and also to Secretary Jeh 
Johnson, and told them that for those of us who, in good faith, 
want to try to move forward and fix what is broken in our 
Nation's immigration laws, this would undermine the good will 
and the opportunity, the confidence of the American people, 
that we need in order to get the job done. So, this is going to 
be tough, and I hope the President reconsiders.
    We should be deeply concerned about the damage that such 
unilateral executive actions would have to our already broken 
immigration system, as I said, and they would, of course, I 
think, contribute to the perception that is already being 
marketed by the cartels who traffic in children and other 
immigrants--this is their business model, as we know, and they 
make a lot of money doing it, and it is far from compassionate. 
This gives the impression that we will not enforce our laws, 
which, indeed, contributes to the magnet of illegal 
immigration.
    We need to fix our broken immigration system, but we need 
to eliminate illegal immigration and accommodate our current 
immigration laws in a way that reflects our values and reflects 
our interests as a Nation.
    I really do believe, and I realize how harsh this sounds, 
but I do believe that the President's announced plans are an 
invitation for lawlessness and will ensure that the surge of 
the illegal immigration on our Southern border will continue 
for years to come. So, I hope, with all sincerity, he does 
reconsider.
    So, I am concerned about the implication of the President's 
stated intentions. I am also concerned about what that means in 
terms of Ms. Saldana's opportunity to be successful in the job 
to which she has been nominated and which I expect she will be 
confirmed. Although she is tough, she is smart, and fiercely 
independent as a prosecutor--she has demonstrated that--I am 
concerned that if she is confirmed, her voice will be silenced 
or undermined by these unilateral actions that the President 
has said he intends to take.
    So, I am glad that Ms. Saldana will have the opportunity to 
discuss these very serious issues before the Committee today, 
and I am confident you will be impressed with her, as I am, and 
that if she is given this opportunity and a fair chance to be 
successful by enforcing the laws of our land and then 
advocating policy changes that need to be made to improve our 
broken immigration system, I think she will be a success as the 
Director of ICE.
    So, I look forward to hearing Ms. Saldana's responses to 
the Committee's questions and helping members of the Senate 
make an informed decision about this important nomination.
    And, I would just close, again, with this plea, Mr. 
Chairman. I hope you will work with us on this sequential 
referral, because, as I told Ms. Saldana, I think this is 
really important to the Senate getting a sense of confidence 
about who she is and also helping her develop the kinds of 
relationships she is absolutely going to need if she is going 
to be a success in this important position.
    Thank you very much.
    Chairman Carper. Well, let me just say to our friend, 
Senator Cornyn, I was impressed by her before. Having you sit 
here and say these things that you have about her today makes 
me all the more impressed. Your insight is very helpful, I 
think, to our Committee.
    Let me take under advisement with Dr. Coburn your 
suggestion on sequential, and I think we will want to have a 
conversation with you and with Chuck Grassley on his birthday--
it is today--and maybe with Senator Leahy, the Chairman of the 
Judiciary Committee, just have a good conversation about it as 
quickly as possible and see if we cannot find some appropriate 
resolution.
    But, thank you so much. I know you have a lot going on and 
you are good to come by.
    Tom, anything you want to add before Senator Cornyn leaves?
    Senator Coburn. No, just to say to Senator Cornyn, thank 
you.
    Chairman Carper. John, thank you so much.
    Do people call you Judge? Do they call you Mr. Secretary? 
Do they have other names for you?
    Mr. Chertoff. They have other names. On a good day, it is 
Judge or Mr. Secretary. On a bad day, I cannot say it in this 
company---- [Laughter.]
    Chairman Carper. It is great to see you. Thanks for all of 
your service for our country, and especially for being here 
today to say something nice about Russ Deyo, when no one else 
would. [Laughter.]
    Thank you for joining us.

OPENING STATEMENT OF THE HONORABLE MICHAEL CHERTOFF, EXECUTIVE 
CHAIRMAN AND CO-FOUNDER, CHERTOFF GROUP, AND FORMER SECRETARY, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Chertoff. Mr. Chairman and Ranking Member Coburn, it is 
good to be back, particularly not in the hot seat, but more as 
a collateral participant.
    Chairman Carper. It is a lot more fun this way, is it not?
    Mr. Chertoff. A lot more fun. And, I am delighted to be 
here to introduce Russ Deyo, who, as you know, is the nominee 
for Under Secretary for Management at the Department of 
Homeland Security.
    I wrote a letter to each of you on his behalf, which I ask 
be made part of the record.\1\
---------------------------------------------------------------------------
    \1\ The letter from Mr. Chertoff appears in the Appendix on page 
186.
---------------------------------------------------------------------------
    I know I do not have to tell you how important this job is. 
It is not one that usually gets a lot of visibility in the 
national press, but it is really critical to the functioning of 
the Department of Homeland Security. And, I know both of you 
have taken a particular interest in the management issues at 
the Department.
    I have to say that maybe this is a more challenging time 
than any in recent years for a couple of reasons. First, we are 
operating in a constrained budget environment. But, second, the 
challenges have increased.
    Senator Cornyn made mention of the issues at the border and 
the surge we had over the summer of unaccompanied minors. I 
would add to that the fact that, in light of what is going on 
in Iraq and Syria and the foreign fighter problem, I think 
there are going to be enhanced challenges in terms of border 
security and aviation and infrastructure security as we deal 
with what I think is inevitably going to be some fallout from 
the operations we are undertaking in the Middle East right now.
    And, I even have to say that the Ebola issue is going to 
present a challenge. A lot of people do not realize the 
Department of Homeland Security has a critical role to play in 
dealing with the possibility of a global pandemic. We went 
through this back in the days of the severe acute respiratory 
syndrome (SARS) epidemic and then when there was concern about 
avian flu, and I think that is going to be yet another 
obligation and responsibility.
    So, the tasks are going to multiply and these cannot be 
discharged without an efficient management structure.
    I know that while the Department has matured quite a bit 
with the leadership of this Committee and the people at the 
Department, there is more work to be done. The acquisition 
system is not fully mature. The financial management system is 
not fully mature. The budgeting system is not fully mature. 
There are challenges with respect to human resources. All of 
these are critical for the Department to perform its security 
function and its other functions.
    And, that is why I am so delighted that the President has 
nominated Russ Deyo. Russ is a fellow alumnus of the U.S. 
Attorney's Office in New Jersey. We did not overlap, but his 
reputation was very well established when I arrived there to 
start my tenure. He did an outstanding job as an Assistant U.S. 
Attorney and he is an outstanding lawyer.
    But, more to the point for the particular position he has 
been nominated for, he has broad experience in the private 
sector, not only as General Counsel of Johnson and Johnson, 
which is one of the leading companies in the United States, but 
as someone who had responsibility across a broad range of 
management issues--human resources, procurement, health care 
compliance, real estate--and, of course, that is pertinent to 
St. Elizabeths', which I know you all have an interest in.
    Chairman Carper. Let me just say, with respect to St. 
Elizabeths', thank you very much for your ongoing support for 
that project and for your continued input. We are grateful for 
that.
    Mr. Chertoff. And, I am happy to continue to assist with 
that.
    So, Russ brings to the position he has been nominated for a 
broad range of experience with one of the best enterprises in 
the world in dealing with all of the issues that are going to 
have to be dealt with as an Under Secretary if he is confirmed.
    I had the opportunity to meet with him. In fact, I tried to 
twist his arm a little bit to take this job, and I am glad that 
the twisting worked. And, as you get to know him and work with 
him, if he is confirmed, you will find him to be a smart, 
experienced, and devoted public servant who will actually bring 
a unique set of skills to this job which are very critical.
    So, I thank the Committee for hearing from me. I could not 
give a stronger endorsement to Mr. Deyo for this position. I 
think, if he is confirmed, he will serve effectively and 
honorably, and I think you will enjoy working with him, which, 
of course, I know is also important to you.
    I am afraid I am going to have to excuse myself, but again, 
I want to thank the Committee for the opportunity to appear, 
and I want to thank Russ for inviting me to introduce him.
    Chairman Carper. Well, you are good to come and join us 
today. I know he appreciates very much your introduction and 
your presence here. So do we, and your words mean a great deal.
    Dr. Coburn, anything you would like to say before Judge 
Chertoff leaves?
    Senator Coburn. It is great to see you again.
    Chairman Carper. Yes, great to see you again. Thanks so 
much. Take care.
    And, Mickey Barnett, I will introduce you in just a moment, 
but we are delighted to have had John Cornyn and Judge Chertoff 
be here.
    Let me just go ahead. I have a fairly brief statement I 
would like to give, and then yield to Dr. Coburn for whatever 
comments that he would like to make. And, then, we will swear 
in our witnesses and get started.
    As you know, we are meeting today to consider three 
nominations, Sarah Saldana, Russell Deyo, and Mickey Barnett, 
who now serves, in the second year as the Chairman of the Board 
of Governors for the U.S. Postal Service. Sarah has been 
nominated to head up ICE, and Russ Deyo to be the Under 
Secretary of Management at the Department of Homeland Security.
    I would just say that Secretary Johnson, whom we have 
enormous respect for, told us that he was sending us a couple 
of good names, and we think that he and the President have.
    Mickey, we are grateful for your service and your 
willingness to serve further as a Governor on the Board of 
Governors.
    I know my colleagues and I on the Committee are pleased to 
see the President has put forth nominees. The head of the ICE 
agency has been vacant for, or without a Presidentially 
appointed leader, I want to say, for 14 months, and we need 
this position filled. It needs to be filled with a 
Presidentially appointed and Senate approved leader. We are 
grateful for those who have served in the interim in this 
capacity, but this is far too long, particularly when we think 
about all the issues we face along our borders and the more 
than, I think, 400 laws that ICE enforces. Thankfully, Ms. 
Saldana has agreed to step forward and take up this challenge 
and we appreciate it.
    As Senator Cornyn has said, you have a distinguished record 
as the U.S. Attorney for the Northern District of Texas, where 
you represent the U.S. Government in some 100 counties. In this 
role, you have the front row seat to the threats that our 
country faces every day from transnational criminal networks, 
something that will serve you well if you are confirmed for 
this position.
    Ms. Saldana is a true American success story. We have heard 
a little bit about it from Senator Cornyn, rising from humble 
beginnings in South Texas as the youngest of seven children, to 
become an accomplished partner at the major law firm and one of 
the Nation's top law enforcement officers. I think when you 
were a kid growing up in Corpus Christi, I was a Naval flight 
officer, got my wings at Corpus Christi Naval Air Station, not 
far from where you grew up.
    You come to us highly recommended by Senator Cornyn and 
others. But, as our friend from Texas, Senator Cornyn, has 
said, this Committee knows all too well Ms. Saldana has been 
nominated to one of the most difficult positions in our 
government. This is a hard job, and that is why it is important 
to have a proven leader and a respected member of the law 
enforcement community at the helm.
    Ms. Saldana, you will have a tough job ahead of you, if 
confirmed. You know that, but I believe that you are up to the 
task and look forward to supporting your nomination.
    The Committee is also considering today the nomination of 
Russ Deyo to be Under Secretary for Management at the 
Department of Homeland Security. This is an extremely important 
position, as Judge Chertoff has said, given the challenges 
associated with melding 22 different agencies together into one 
cohesive Department, and we have come a long way. I like to 
think that this Committee, led by Senator Lieberman and Senator 
Collins before, now by Dr. Coburn and I, that we had something 
to do with it, but we have had good leadership in the 
Department and real progress has been made in addressing some 
of the many challenges they faced. But, in order for that to 
continue, we need strong leadership, and I think Mr. Deyo will 
be able to provide precisely that kind of leadership.
    Until his retirement in 2012, Mr. Deyo had an impressive 
27-year career with Johnson and Johnson, where he served in 
several top positions, including General Counsel and Vice 
President for Administration. And, like the Department of 
Homeland Security, Johnson and Johnson is a large organization 
with multiple divisions that have distinct, yet related, 
missions. Mr. Deyo's perspective from the private sector will 
be a valuable asset to another Johnson, that being Jeh Johnson, 
particularly as you work toward the unity of effort that will 
make the Department greater than the sum of its parts.
    Mr. Deyo, I think the Department and the American people 
are fortunate that you are willing to take on this assignment, 
and we thank your family for sharing you with us.
    We are also fortunate to have with us Mickey Barnett--nice 
to see you--who has been renominated by the President to serve 
on the Postal Service's Board of Governors. Mr. Barnett 
currently serves, as I mentioned, as the Chairman of the Board, 
a position he has held for 2 years. If confirmed, he would 
embark on a third term with the Board, where he has been a 
Governor since 2006, one of the longest-serving Governors in 
America, I would say. A different kind of Governor.
    Mr. Barnett's nomination comes at a very challenging time, 
as we know, for the Postal Service. The Postal Service operates 
at the center of a massive printing, delivery, and logistics 
industry that employs millions of people. In recent years, the 
organization has been faced with a decrease in First Class Mail 
volumes, as we know, and by extension, revenues. The Postal 
Service today carries barely enough cash to make payroll. We 
all want a Postal Service that our constituents and businesses 
can rely on, one that has a chance of continuing the remarkable 
progress we have seen made in package delivery, really 
remarkable, and a Postal Service that takes full advantage of 
other opportunities that lie ahead, about which I am actually 
very encouraged.
    Our Committee has sent a bill to the full Senate--Dr. 
Coburn and I and our staffs have worked on it for, it seems 
like forever, but I think we have done good work. The Committee 
reported it out by a big bipartisan margin. It is before the 
Senate now for their consideration. But, our bill would enable 
the Postal Service to save billions of dollars in pension and 
health care costs. We believe our bill is a solid, 
comprehensive, and realistic response to a real crisis and we 
look forward to debating it, discussing amendments to it on the 
floor, and acting on it during the upcoming lame duck session.
    Congress holds the keys to the Postal Service's future, but 
the Board of Governors serves a vital role in setting the 
direction and policies of this large organization. I think the 
Senate must move quickly to confirm all the nominees to the 
Board--there are now five that are before us, including the 
four who have already been considered and approved by this 
Committee, a month or so ago, and they are, I think, a good, 
strong quartet.
    I look forward to talking with you today, Mr. Barnett, 
about what you think needs to be done further to address the 
challenges facing the Postal Service and the skills that you 
bring to the table.
    And, to conclude, I want to thank all of our nominees again 
for being here, for your willingness to serve our Nation in 
these important roles, and also, again, to thank your families 
for sharing you with us.
    And, with that, let me yield to my friend, Dr. Coburn.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Well, first of all, I thank all three of 
you for being willing to serve. Appreciate you being here and 
your family's sacrifice that comes along with your commitment.
    I have a formal statement\1\ that I would ask unanimous 
consent to be placed in the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Coburn appears in the 
Appendix on page 37.
---------------------------------------------------------------------------
    I had a great visit with Russ Deyo yesterday. I have been 
aware of the work of Governor Barnett for a number of years. 
And, I look forward to our meeting this afternoon, Ms. Saldana.
    I just would say, Homeland Security's primary mission--one 
of their five core missions--the first mission is preventing 
terrorism and enhancing security, and that all fails if we do 
not have interior enforcement, and we do not right now. So, the 
big job--and I am so appreciative of Jeh Johnson. Ms. Saldana 
comes with law enforcement background. She gets it. But, Jeh 
has managed to put in line effective people at almost every 
spot as he has taken over Homeland Security.
    And, my hope is, is as we go through this process, that we 
can do speedily the work of getting you into positions. And, on 
that basis, I am not excited about a sequential referral on 
your nomination, simply because I think we need your feet on 
the ground, and if we have a sequential referral, that means 
you will not be approved until sometime in December. So, I 
think that is unfortunate. It is unnecessary. And, so, I would 
love to be in on that discussion.
    Anyhow, I am significantly concerned about ICE. It is 
20,000-plus employees. That is 15 times what you are doing now. 
And, what we have heard in terms of whistleblowers and 
legitimate things that we have checked out, the rule of law is 
not occurring in ICE today. It is more troubled than anybody 
knows, and you will soon find out. So, I am extremely grateful 
for you being willing to take this on, because it is a 
difficult challenge for our country.
    I know your husband is from the big city, Oklahoma City--
when I talk to people about immigration, they are not upset 
that people want to come here. They are upset that the rule of 
law is being applied inequitably cross different groups. And, 
their question is, well, if the rule of law does not apply in 
this issue area, why does it apply somewhere else? And, if it 
does not apply to them, why does it apply to me? And, so, the 
very glue that holds us together, which you have spent your 
career, Ms. Saldana, enforcing, is the idea of the rule of law. 
It is not perfect, but the attempt at equal justice for all 
under the law has to be the thing that guides us as we look at 
the immigration issue, and--ICE specifically--and, they are a 
very real responsibility for protecting this country.
    So, again, I would just say, thank you, all three, for 
being here. I thank your families and look forward to your 
testimony.
    Chairman Carper. Dr. Coburn, thank you.
    We have been joined by Senator Ayotte. Good morning, Kelly. 
Nice to see you. Thanks for joining us.
    Just a very brief further couple of words about each of our 
nominees, and then I will administer an oath and we will give 
you the opportunity to present your testimony and then we will 
have some good conversation.
    As we have noted earlier, Ms. Saldana is a proud native of 
Corpus Christi, Texas, and currently serves as the U.S. 
Attorney for the Northern District of Texas. Prior to her 
confirmation as U.S. Attorney, she was the Deputy Criminal 
Chief of the Fraud and Public Corruption Section of the Office 
of U.S. Attorney for the Northern District of Texas. However, 
she began her professional career in a different kind of public 
service, convincing teenagers to do their homework as an eighth 
grade English teacher in Dallas, Texas. God bless you. I mentor 
an eighth grader, so I know. Thank you, again, so much for 
being here and for your service.
    Our next nominee, Russ Deyo, again, 27 years of experience 
with Johnson and Johnson (J&J), most recently a member of the 
Executive Committee responsible for managing global operations. 
Prior to J&J, Mr. Deyo was an Assistant U.S. Attorney, as we 
have heard, for the District of New Jersey. He served as the 
Chief of the Special Prosecution Unit during the last 3 years 
in the U.S. Attorney's Office. We understand you have come out 
of retirement to consider this position. I just wonder if your 
wife knows you are doing this, and maybe you can share that 
with us--oh, I see she is here. That is a good sign. 
[Laughter.]
    Our thanks to you, ma'am, for your willingness to share 
this fellow with us for a while.
    Our last nominee, of course, is Mickey Barnett, who has 
been renominated to the U.S. Postal Service's Board of 
Governors. He was first nominated to the Board in 2006 and now 
serves as its Chairman. Earlier in his career, he served on the 
Hill as an aide to one of my favorite colleagues, Pete Domenici 
from New Mexico, later was elected, I think, to the State 
Senate. Is that right? So, you are a Senator, too. In addition 
to his current duties on the Board, Mr. Barnett is managing 
partner of the Barnett Law Firm and has practiced law in New 
Mexico for over three decades.
    Before we invite our witnesses to give their statements, 
our Committee rules require that all witnesses at nomination 
hearings give their testimony under oath, and if you would all 
stand, please, and raise your right hand, I would appreciate 
it.
    Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Ms. Saldana. I do.
    Mr. Deyo. I do.
    Mr. Barnett. I do.
    Chairman Carper. Please be seated.
    Ms. Saldana, you may proceed with your statement. Feel free 
to introduce your family members. I had a chance to meet some 
of them, but please feel free to introduce them. And, I would 
say to Mr. Deyo and Mr. Barnett, if you have family members or 
friends who you would like to introduce, before you speak, just 
introduce them to us.
    Ms. Saldana.

TESTIMONY OF THE HONORABLE SARAH R. SALDANA,\1\ NOMINATED TO BE 
 ASSISTANT SECRETARY FOR IMMIGRATION AND CUSTOMS ENFORCEMENT, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Saldana. Thank you. Mr. Chairman, Dr. Coburn, and 
Senators of this Committee, I really do appreciate the time you 
have given me to appear today to be considered for the position 
of Assistant Secretary for Immigration and Customs Enforcement, 
and I truly do appreciate the time that Senator Cornyn took to 
join me, give me a Texas hug before I gave this testimony. He 
has been very supportive over the years, both with respect to 
me personally and with respect to my office.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Saldana appears in the Appendix 
on page 41.
---------------------------------------------------------------------------
    And, I do want to introduce my family, if I may. My husband 
of 26 years, Don Templin, my brother, Lupe Saldana, my sister 
Marisela Saldana back here, who is a State District Court Judge 
back home. My niece, Lupe's daughter, Cindy Saldana. She looks 
like an actress back there. [Laughter.]
    And, a couple of very good friends that wanted to be here 
with me today.
    I am honored by the trust and confidence that the President 
of the United States has shown in me by nominating me to this 
office. I am so grateful for the support of Secretary Johnson 
and the others at ICE, both on the enforcement and removal side 
and on the investigation side, with whom I have worked for 
years now back home in Dallas. They have been highly supportive 
over the years, and certainly with respect to my preparation 
for my testimony today.
    Senators, I sit before you today as a third generation 
American, the youngest of seven children, and that should tell 
you something about me. Raised by my mother, essentially on her 
own in South Texas. I am a lifelong Texan and very proud of it.
    I would like you to know my mother's name, Inez Garcia 
Saldana, and if she were living today, I can only imagine the 
pride that she would have in seeing me testify before this very 
esteemed Committee, talking about a nomination to an office 
that is so critically important to the country, and with 
respect to my nomination by the President of the United States 
of America. I wish she were here.
    Chairman Carper. I have a hunch she is watching.
    Ms. Saldana. I think so, too, Senator.
    I will tell you, I mentioned her because she is singularly 
responsible for my being the person I am today. She taught me, 
not even so much through her words as through her deeds, the 
values that she herself practiced: Self-reliance, hard work, 
and giving of yourself to the public and to others.
    In this brood of seven siblings, I have four brothers who 
divide my loyalties among the different branches of the 
military. Two of my brothers are Marines, as is my husband, 
Don. One served in the United States Navy, and the fourth, 
David, who I am sure is listening today, is a Purple Heart 
recipient who served with the United States Army in Vietnam.
    I have no military experience myself, but I have served my 
country in various ways. You have mentioned as an Assistant 
United States Attorney and currently the Chief Law Enforcement 
Officer in Dallas and the Northern District of Texas. And, I 
will tell you, Senators, even though I have 40 years of work 
experience, these years in the United States Attorney's Office, 
enforcing the rule of law in the great State of Texas, have 
been the best years of my professional life, unequivocally.
    And, in these years at the U.S. Attorney's Office, I have 
worked closely with the people at Homeland Security, as I 
mentioned, the Enforcement and Removal Operations (ERO) people 
and the people on the investigation side, in helping them to 
take on the task that is the mission of the Department of 
Homeland Security. And, I know that they are listening and 
watching, and I will tell you that I join them in wanting to 
secure the homeland and to ensure public safety.
    I have the greatest respect and admiration for them, as I 
do for all the agencies I work with, the Federal Bureau of 
Investigations (FBI) and the Secret Service and Education and 
all the others. Often, they work at their own personal peril, 
and often, without any public acclaim. And, I would be truly 
honored, if confirmed, to continue to serve them back in Dallas 
and in the Northern District of Texas, and on a national level 
with all of their colleagues.
    Senators, I believe it is important for me to commit to you 
this morning, at this critical time, as you consider my 
nomination, that I will be cooperative and transparent with 
this Committee, any of the other Committees of the Congress, 
and that I truly appreciate the role I come to you before 
today, even in my role as United States Attorney. You are the 
lawmakers. I enforce the law.
    And, as U.S. Attorney, I am also ever mindful, and I want 
to assure you that I worry about the management of the agency. 
I worry about the expenditure of the taxpayers' funds. And, I 
do my best every day in my role as U.S. Attorney to ensure they 
are spent wisely and effectively and toward that ultimate goal 
of homeland security.
    So, I understand the enormity of the task before me that 
you and Senator Cornyn have referenced, and should I be 
confirmed, but neither am I intimidated by it. I know I have 
shared a story with my colleagues at the Department of Justice 
(DOJ) that they probably get tired of hearing, but I will 
repeat it here.
    I have never been so proud in my life as the first time I 
stood before a jury in a Federal courtroom and looked at them 
and said, ``My name is Sarah Saldana and I represent the United 
States of America.'' And, I am equally proud to tell you that 
again today.
    I hope to be confirmed as Assistant Secretary. I want to 
join you in your efforts to promote public safety and to ensure 
the safety of the homeland, and I thank you.
    Chairman Carper. Well, thank you for an inspiring 
statement. Thank you.
    Mr. Deyo, I am glad I do not have to follow that---- 
[Laughter.]
    But, I am glad you are here to follow. So, you are 
recognized. Feel free to introduce anyone you would like from 
your family or from the guests that are here.

    TESTIMONY OF RUSSELL C. DEYO,\1\ NOMINATED TO BE UNDER 
 SECRETARY FOR MANAGEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Deyo. Thank you, Chairman Carper and Dr. Coburn. It is 
an honor for me to appear before you today as you consider my 
nomination to be Under Secretary for Management at the 
Department of Homeland Security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Deyo appears in the Appendix on 
page 130.
---------------------------------------------------------------------------
    And, Chairman Carper, as you point out, I am very pleased 
to have members of my family here. Stephanie is my wife of 43 
years. We have been in love since high school. My two 
remarkable children are here, Jacqueline--she is gone because 
of the grandchildren that I will get to in a minute. She is a 
working mom. My son, Bentz, who is a published author and dad.
    Chairman Carper. Would you raise your hand? Thank you.
    Mr. Deyo. Jacqueline's husband is also here, Xavier Seys. 
He is a Frenchman by birth, but recently became a U.S. citizen 
and is a proud proponent of the special benefits that come with 
being a citizen of our country.
    Chairman Carper. Good. Would you raise your hand?
    Mr. Deyo. He is probably not here. He is chasing the two 
grandchildren, Mathis and Oscar out in the hall. Mathis is 3\1/
2\. Oscar is 18 months. I try to have every moment with them, 
so I invited them, but they are rambunctious and they are 
wandering the halls. They are delightful, as is Bentz's 
daughter, Hailey Jane, who is home with her mom, Jen, in New 
Jersey, and made it possible for Bentz to be here today.
    Chairman Carper. We are glad that all of you could be here. 
Welcome.
    Mr. Deyo. Thank you. As to my background, as you have 
pointed out, I retired in 2012 from Johnson and Johnson after 
27 really wonderful years, the last 15 years on the Executive 
Committee, the principal management group responsible for the 
company's global operations.
    I must confess, I love retirement, time with the grandkids, 
traveling with Stephanie, serving on nonprofit boards, and 
occasionally lecturing at business and law schools. But a few 
months ago I received a call out of the blue from Secretary 
Johnson asking if I would consider being a nominee for the role 
of Under Secretary for Management. And, after meeting with a 
number of knowledgeable people, including former Secretary 
Chertoff, and long discussions with my family, I decided to 
proceed, and here is why.
    Dr. Coburn, you made reference to the mission of Homeland 
Security, and I find it both critical and inspirational. I take 
it personally. It requires constant vigilance, a willingness to 
change, and the ability to react to new circumstances. If 
confirmed, I would be honored to join the hard working men and 
women of the Department and will endeavor to bring my 
experience to support this critical mission.
    Like both of you, I have enormous respect for Secretary 
Johnson. It is based on our past working relationship and his 
demonstrated leadership. It means a lot to me that both he and 
former Secretary Chertoff, whom I also greatly respect, believe 
I would bring value to this role.
    I do think my experience in private industry should bring a 
fresh perspective to this role. As you well know, DHS consists 
of several operational components. The Under Secretary for 
Management leads a group of six administrative functions that 
provide support to these components. But, importantly, this 
management group is also an engine that can drive better 
outcomes and greater efficiency through collaboration by and 
between the components and by standardization of strong 
policies, practices, and reporting.
    As you have pointed out, Johnson and Johnson is similarly 
decentralized, over 250 individual operating companies around 
the globe in the pharmaceutical, medical device, and consumer 
space. In my roles on the Executive Committee, I was 
responsible for an array of functions that served these 
operating companies: Human resources, compliance, quality, real 
estate, security, procurement, and corporate procurement. In a 
tough competitive environment, companies like Johnson and 
Johnson need to be proactive, anticipating problems and 
opportunities and planning for contingencies. If confirmed, I 
would try to reinforce this proactive approach going forward.
    In sum, I believe that my experience at Johnson and Johnson 
should serve me well in meeting the challenges that the 
Department faces to collaborate, align priorities, manage money 
effectively, and deliver on its critical mission.
    I have been blessed by my family, by my work, by the 
enormous benefits of being a citizen of the United States. This 
provides me an opportunity to provide some payback for the 
opportunities I have had, and I would be very proud to conclude 
my career representing the United States and working with the 
men and women of the Department.
    Strong work has been done by those who served in the role 
of Under Secretary for Management in the past. I would work 
hard to build on that foundation to make the Department even 
stronger, if confirmed.
    I very much appreciate your consideration.
    Chairman Carper. There is an old saying that paybacks are 
hell, but not all of them are, and in this case, this could be 
a gift from God and we are grateful for it. Thank you for your 
willingness to serve and for your testimony.
    Mr. Deyo. Thank you.
    Chairman Carper. With that, let me turn to Chairman 
Barnett. Mickey, please proceed. Thank you. Welcome.

 TESTIMONY OF THE HONORABLE MICKEY D. BARNETT,\1\ NOMINATED TO 
               BE A GOVERNOR, U.S. POSTAL SERVICE

    Mr. Barnett. Thank you, Chairman Carper, Ranking Member 
Coburn, and Members of the Committee. Thank you for the 
opportunity to appear today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Barnett appears in the Appendix 
on page 190.
---------------------------------------------------------------------------
    I also want to thank Senator McConnell for his 
recommendation and President Obama for my nomination.
    These past 8 years have been a real learning experience in 
regard to the Postal Service. Fortunately, I have served 
together with talented and experienced Governors, and together, 
we have been able to reach consensus on every significant 
issue, including the selection of the current Postmaster 
General and Deputy Postmaster General.
    I have now become a passionate advocate of the Postal 
Service and its incredible history of service to the people of 
our country. I feel an obligation to do everything I can to 
make sure it continues to be a viable entity capable of prompt 
and reliable delivery of the mail and packages.
    As everyone here knows, the Postal Service is in a crisis 
mode. Our liabilities are approximately $68 billion, and we 
have a fleet of over 200,000 delivery vehicles with an average 
age of more than 22 years. Even with a reduction of more than 
200,000 career employees over the past 8 years, a reduction in 
mail processing facilities, and a reduction in operating hours 
at some post offices, we are unable to service our debt, pay 
down our liabilities, or pay for needed capital investments. 
Our most profitable product, First Class Mail, continues to 
decline at 8 percent a year, while our costs, like everyone 
elses, continue to rise. Allow me to elaborate.
    The erosion of First Class Mail volumes are being driven by 
rapid changes in the way Americans communicate. Smartphones, 
texting, e-mails, and the Internet were unheard of only a few 
short years ago. Today, they are the primary way most 
individuals interconnect.
    Fortunately, as First Class Mail has declined, the U.S. 
Postal Service's package revenues are growing by more than 10 
percent compared to last year, and advertising mail revenues 
are relatively steady. However, to fully leverage the package 
revenue opportunities and remain competitive, the Postal 
Service will need to invest billions of dollars in new delivery 
vehicles, infrastructure, and new package sorting equipment.
    The Postal Service, working in conjunction with the Board, 
have developed a reasonable approach to pay down its debt, 
achieve financial stability, and if given flexibility through 
comprehensive Postal reform legislation, it can put negative 
headlines in the rear-view mirror.
    Focusing on the business decisions that are within its 
authority to independently implement, the Postal Service, as I 
said, decreased its career workforce by 205,000 and reduced the 
annual cost base by $15 billion since 2006 through workforce 
reductions, all through attrition and voluntary retirement 
incentives. The Postal Service has also implemented cost 
reductions for retail, mail processing, transportation, 
delivery, and administration, literally, every area of the 
organization. In fact, most of these cost reductions have taken 
place behind the scenes, in areas that do not directly impact 
Postal customers.
    Moving forward under current law, the Postal Service has 
some limited flexibility to make further cost saving changes. 
However, these measures are insufficient to close the remaining 
financial gap. Given its current governance and business model 
constraints, the Postal Service cannot achieve financial 
stability without the passage of comprehensive Postal reform 
legislation. If given the flexibility by Congress to quickly 
adapt to today's evolving marketplace and customer demand, the 
Postal Service can chart a path forward to remain viable and 
relevant for many years to come.
    As Chairman of the Board of Governors these past 2 years, I 
have had the opportunity to meet with members of the Senate and 
House to discuss Postal reform, and I will not repeat those 
requests here. But, and this is an important point to 
emphasize--even if all of the reforms are made, the Postal 
Service will remain in trouble if it does not work to 
aggressively generate additional revenue.
    The Board of Governors has made a concerted effort to meet 
with many large mailing customers to discuss and learn what we 
can do to improve. The Board has gone to San Diego, Las Vegas, 
Phoenix, Kansas City, and New York to receive this input from 
the business community on how we can best go forward to put us 
on a path to profitability. These meetings, along with the 
marketing efforts of Postal management, have resulted in 
significant increases in package delivery. We believe this 
growth will continue and will offset some of the declines in 
the mail volume.
    I will close with this--two years ago, we met with the 
futurists. I did not know what a futurist was at the time, but 
we met with this lady. She predicted that in 30 years, there 
will be no paper. Now, I am not here to tell you this is a 
reasonable prediction, because I have no idea, but if that is 
even possible, the Postal Service must be forward thinking. If 
true, there will be no mail in 30 years. That is why we are so 
focused on increasing our package delivery.
    I am hopeful to continue my service on the Board of 
Governors and can add to my 8 years of experience. I am happy 
to respond to any questions, and thank you for the opportunity 
to appear here today.
    Chairman Carper. Chairman Barnett, thank you so much for 
your testimony, for your service and willingness to serve 
further.
    I am going to start my questioning today with the standard 
three questions we ask of all nominees. You do not have to 
rise. You do not have to raise your right hands. But, here are 
the three questions.
    Is there anything that any of you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated? Ms. 
Saldana.
    Ms. Saldana. No, sir.
    Chairman Carper. Mr. Deyo.
    Mr. Deyo. No.
    Chairman Carper. Chairman Barnett.
    Mr. Barnett. No.
    Chairman Carper. OK. Second question. Do you know of 
anything, personal or otherwise, that would in any way prevent 
you from fully and honorably discharging the responsibilities 
of the office to which you have been nominated? Ms. Saldana.
    Ms. Saldana. No, sir.
    Chairman Carper. Mr. Deyo.
    Mr. Deyo. No.
    Chairman Carper. Chairman Barnett.
    Mr. Barnett. No.
    Chairman Carper. OK. And, finally, do you agree, without 
reservation, to respond to any reasonable summons to appear and 
testify before any duly constituted Committee of Congress if 
you are confirmed? Ms. Saldana.
    Ms. Saldana. Of course.
    Mr. Deyo. Absolutely.
    Mr. Barnett. Yes.
    Chairman Carper. OK. Thank you very much. So far, so good.
    I am just going to start with you, Ms. Saldana, if I can. 
We know that the leadership position to which you have been 
nominated is a really demanding, tough job. I once joked with 
Lisa Jackson. She had been nominated by the President, 
President Bush, George W. Bush, to serve as the Environmental 
Protection Agency (EPA) Administrator for our country, a hugely 
challenging job, as well. And, at the end of the hearing, I 
suggested to her that she turn around and say goodbye to her 
children because she would not see them until Christmas. They 
started crying and---- [Laughter.]
    It was not that bad. I was not that heartless. But, I did 
convey the idea that this is a busy job and they might not see 
her as much as they would like. So, I would just say to your 
husband, how long have you all been married, twenty----
    Ms. Saldana. Twenty-six.
    Chairman Carper. Twenty-six years. Well, you will see her 
before Christmas, but maybe not as much as you would like, if 
she is confirmed.
    I want to talk about two things. We mentioned leadership 
and the word management cropped up a time or two. Most of what 
I have learned about leadership--I learned a lot from my 
parents about values, but I learned in the Navy, and 23 years 
active in Reserve duty, a good deal about leadership. And, I 
think leaders are folks who have the courage to keep out of 
step when everyone else is marching to the wrong tune. We lead 
by our example. It is not do as I say, but do as I do. I think 
leaders should have the heart of a servant. I think leaders 
should be humble, not haughty. And, I think leaders need to be 
purveyors of hope and appeal to people's better angels and 
inspire people to work. If you think you can, we think we 
can't--I think that is Henry Ford--you are right. So, that is 
the kind of leaders that I look for as we have folks come 
before our Committee.
    I would like for you to talk a little more about 
leadership. I want you to talk, whether it is about management 
and how your life and your life's experiences, including your 
work experiences, have embedded in you the kind of management 
skills that could be helpful, maybe upsized and upscaled in 
this assignment. But, just talk with us about that, please.
    Ms. Saldana. And, I had thought a lot about that----
    Chairman Carper. Make sure your microphone is on, please, 
because we want to hear every word.
    Ms. Saldana. There is a green light.
    Chairman Carper. OK.
    Ms. Saldana. Is that the first sign of a good leader--
there. Thank you.
    Mr. Deyo. You are welcome.
    Ms. Saldana. All right.
    Mr. Deyo. That is what management does to help. [Laughter.]
    Ms. Saldana. That is a very thoughtful question, Mr. 
Chairman, and I have given that a great deal of thought, and I 
believe every experience I have had, and when I talk to young 
people, both high schoolers and college kids and students in 
law school, I tell them to take advantage of everything they 
have done in their life. Whether you are serving sodas in a 
drug store or doing whatever you do, enjoy it, learn from it, 
and all of these experiences build on each other to make you 
the person you are.
    So, I have been working for a long time. I have been living 
for a long time, and working about 40 years, and, starting with 
the school teacher that you mentioned and the challenges 
there----
    Chairman Carper. Did you ever work as a kid, growing up in 
Corpus Christi?
    Ms. Saldana. In a drug store, actually. That is why I 
mentioned that----
    Chairman Carper. So did I.
    Ms. Saldana. Yes. So, I have come to learn that leadership 
requires you to be the point of the spear, the face of the 
organization, the face of the group you are leading, and I have 
done that with the U.S. Attorney's Office, I believe.
    I believe that a leader really needs to be the face of the 
office, to conduct himself or herself with the greatest ethics 
and integrity and professionalism. As you mentioned, you lead 
by example. If you are not conducting yourself at the highest 
standards of excellence and integrity, it is difficult for 
people to follow.
    I have had to exercise good judgment, not only in my 
positions at the U.S. Attorney's Office, but in representing 
some of the largest corporations in the country when I was 
working with Baker Botts and Haynes and Boone, firms I am very 
proud to have been associated with. Once again, excellence was 
an expectation there.
    And, so, during that time when I did that, I picked up the 
skills of communication and the importance of relationships, 
and I do not say that in a manner that is intended to be 
disrespectful. What I am saying is relationships are important. 
You have them all your life, and it is a matter of fostering 
them and making sure that you do not slam the door behind you 
when you leave from one place to the other.
    And, then----
    Chairman Carper. I would just interject there. I think one 
of the reasons we have a productive Committee here is because 
of the trusting relationship that Dr. Coburn and I worked to 
create, and really with the Committee and with our colleagues. 
One of the things that is most missing here in the Senate these 
days--and in the House--is the trust especially across party 
lines. So, I concur. that is enormously important.
    Ms. Saldana. And, there is nothing like good judgment, as 
well, and I have honed that judgment over the years, and a 
little bit of common sense does not hurt, either.
    Surrounding yourself with the very best people. In a 
position like this, the demands are great. You cannot get into 
the weeds, necessarily, but you can make sure that the people 
that are around you running the day-to-day operations are the 
finest, the best trained, and that you work as a leader of that 
office to provide them the tools they need.
    Decisionmaking--once again, deliberate, but timely. You 
cannot just sit on decisions, and you have to think them 
through. And, I can see where that skill will serve me well in 
this particular position. Be thoughtful. Get all the 
information you can, and then do what is in the best interests 
of the American people.
    And then, finally, and I think I have repeated this, but it 
bears repeating, communication, communication, communication. 
In this position, with 20,000 employees across the world, with 
all the agencies we have somewhat overlapping jurisdiction 
with, all of that, it is important to be communicating with 
them, and I have done that as a United States Attorney. I have 
had to deal with the local law enforcement in 100 counties. 
There is a sheriff in each one of them. There is a police 
chief. There are constables. And, I think all of that is going 
to serve me well if this Committee does and the Senate confirm 
me.
    Chairman Carper. Thank you so much for those responses.
    I will yield to Dr. Coburn. When we come back, Mr. Deyo, I 
will have a couple of questions for you and Chairman Barnett. 
Thank you. Tom.
    Senator Coburn. Mr. Chairman, I will make it easy. I do not 
have any questions for Russ Deyo or Mickey. I pretty well am 
satisfied. I have not had a chance to have a private visit with 
U.S. Attorney Saldana, and so all of my questions are really 
going to be directed to you, and I have a ton, so you will have 
to forgive me. A lot of them will probably end up being in the 
record.
    I am really worried about ICE. I mean, when ICE releases 
600 criminals based on sequestration, nobody seems to know why. 
Nobody has taken responsibility for it. And, I am not talking 
about minor criminals. I think the organization has some real 
conflicts within it, and I think it comes back of whether or 
not the leader is going to be establishing that we are going to 
follow the law. The rule of law is important. We are going to 
make that our mantra, and we are going to do that in a kind and 
compassionate way, but we are going to do it. So, bear with me 
as I go through some questions for you, if I may.
    Last month, the DHS Inspector General (IG) released a 
report that Senator McCain and I had requested which found ICE 
released thousands of illegal immigrants last year prior to the 
sequester, and that more than 600 of these had significant 
criminal records. Now, I am talking criminal records here in 
the United States. Are you aware of that report, one? What are 
your views about the decision that somebody made, that nobody 
will own up to, that we released criminals onto the street? 
And, can you assure this Committee that that will not happen 
under your watch?
    Ms. Saldana. The answer to the first question is, I am 
aware of that, Senator, and I will tell you that I understand 
the concern you have. I think it is a concern to all the 
American people, so I am glad you brought that up. I want to 
speak to that directly with respect to the general concept of 
keeping track of people who are in the country and making 
deliberate, thoughtful decisions. If, in fact, the pressures of 
limited resources versus ensuring the safety of the American 
public, I do that every day as a United States Attorney.
    I have not studied and gotten behind the facts regarding 
that report, sir, I will be candid with you, but I feel a very 
strong commitment that that is one of the top issues that I 
would like to study and certainly learn more about. But, in the 
end, all I have done the last few years is enforce the law. 
That is what I know to do. I like the fact that you mentioned 
some compassion, that there is certainly room for that. But, we 
have to protect the American public first.
    And, so, all I can assure you, Senator, is that I will act 
in the manner that you are requiring the Director of this 
agency to act, and that is with the principle of the rule of 
law certainly in mind. But, I understand those pressures and I 
will just have to take a look at that, Senator, and talk more 
about that with you, I hope.
    Senator Coburn. OK. ICE Homeland Security investigations 
has a complex mission with enforcement that spans a number of 
different laws. However, many of these laws overlap with a lot 
of other Federal agencies and law enforcement agencies. If you 
gain this nomination and are confirmed, how are you going to 
assure us that you do not expand into areas of mission creep, 
because I see that as part of our problem right now, is you 
have limited resources, but we are expanding the mission when, 
in fact, some other Federal agency has it covered already. How 
are you going to make sure that we do not go beyond what is 
truly part of the essential and primary mission of Homeland 
Security?
    Ms. Saldana. Well, I have just gotten to appreciate even 
more how broad that mission is. But, I do recognize, since I 
work now daily with the Federal Bureau of Investigation, the 
Secret Service, and the Homeland Security Investigations (HSI) 
at ICE, certainly, that there are areas of overlap and we 
cannot afford today to run into each other with respect to the 
responsibilities we are carrying out.
    And, just using cybercrime as an example, everyone has got 
to step up, all the agencies that have some responsibility 
there, but it is also important to stretch the taxpayer dollar 
by coordinating and collaborating. I do that as United States 
Attorney. I sit down with the heads of every agency I work 
with, with the District Attorney, with the heads of local law 
enforcement, our public safety, Department of Public Safety, 
once a quarter. We break bread together. We talk about what we 
are doing.
    Senator Coburn. I have it. I am not ever going to get 
through these if I let you go on----
    Ms. Saldana. Yes.
    Senator Coburn. I understand it, and I appreciate that.
    One of the things you discussed was prosecutorial 
discretion in the area of immigration enforcement, including 
the need to focus prosecutorial resources on the biggest 
threats to public safety. But, as ICE Director, you would have 
investigative discretion to determine what to investigate. So, 
my question is, would you apply the same logic, focusing 
investigative resources on the biggest threats?
    And, let me just give you some contrast. How do you compare 
the threat of illegal immigrants, especially those with 
criminal records, or those who overstay their visa terms in 
terms of intending to be a threat to us, as we saw in 9/11, 
compared with the threat to public safety for fraudulent 
copyright, fraudulent counterfeit merchandise? How do you weigh 
those two and how do you apply that investigative resource to 
what is most important for us in terms of protecting the 
homeland?
    Ms. Saldana. Well, as I do now as United States Attorney, 
Senator, you have to look at what is the biggest threat to the 
American public and to the constituents within your district. I 
believe that you have to assess every case, and here is where 
process and systems that are in place are the most important 
thing, because you have to be able to assure the public that 
you are looking at every case on the merits, on the facts, and 
on the law.
    So, this is what I would do as one of my first things, if 
this Senate were to confirm me, is to look at the processes in 
place to determine, to make that very assessment. But, it has 
to be on a case-by-case basis. It cannot be by categories, 
necessarily.
    So, I agree with you, Senator. I think that is an important 
issue facing the agency, and I certainly have kept up and read 
some of the reports. I want to get in there and work on this 
issue.
    Senator Coburn. Senator Carper, do you want me to go on, or 
do you want to?
    Let us talk EB-5 for a minute. Over the past year, I and 
others have engaged in significant oversight of the EB-5 
immigrant investor visa program at the United States 
Citizenship and Immigration Services (USCIS). It is fraught 
with problems, including very real threats to our national 
security, and it has rampant fraud. That is indisputable.
    In the course of that investigation, I have reviewed a ton 
of documents, including an ICE HSI tasking that stated, the 
only way to protect national security was to sunset the 
Regional Center portion of the EB-5 program. That is ICE's own 
report on its own program. ICE HSI must carry out investigation 
of any referrals made by USCIS involving this or any other 
immigration benefit program.
    So, my questions are the following. ICE HSI made this 
recommendation to sunset this program, yet USCIS continues to 
expand this program despite its very real inherent national 
security vulnerabilities. As Assistant Secretary, how will you 
work to ensure that ICE recommendations for preventing national 
security threats are given credence and implemented by 
agencies, in this case, USCIS?
    Ms. Saldana. Senator, you have identified the top priority 
within Homeland, and that is the national security threat. You 
have identified the top priority within the Department of 
Justice in which I serve now. I am not familiar with all the 
facts and circumstances related to the situation you are 
talking about. That is one thing that the Director of ICE has 
to focus on, is any process that touches upon how we assess 
these threats and what we do about them.
    If I am confirmed, I need to get involved, get all the 
information I can, hopefully, discuss this matter further. It 
sounds like you have studied this a great deal. But, the bottom 
line is, that is the top priority of the Director of ICE, is 
assessing the systems that determine the severity, the 
seriousness, of any national security threat, and I commit to 
you I will do that, and, hopefully, get your assistance in kind 
of assessing the problem.
    Senator Coburn. With me, it is unexplainable, why EB-5 
Regional Center programs have not been shut down already. I 
cannot get an answer to it. I cannot get anybody that wants to 
take responsibility for it. China steals our intellectual 
property. They, as a nation-state, invade our computers all the 
time. And, they are going to have over 98 percent of the EB-5 
regional programs this year, where they are taking money they 
have stolen from us, invest it back into an EB-5 program, and 
then put counterintelligence people on the ground in this 
country with our blessing. It makes no sense whatsoever, and 
nothing is being done about it. This should be one of your 
highest priorities, because it is a real risk to this country 
and we are sitting there saying, come on, do it some more, 
because we have not shut down the Regional Center program.
    Ms. Saldana. And, I will do that, Senator. I will.
    Senator Coburn. The Associated Press (AP) last week 
reported that the United States is sharply curtailing 
deportations. The AP noted, the Department of Homeland Security 
figures show it deported 258,000 illegal immigrants through 
July 28 of 2014. The same period last year, 321,000. According 
to the L.A. Times, deportations from the interior are down more 
than 40 percent since 2009. And, the Associated Press also 
reported that ICE is on pace this year to remove the fewest 
immigrants since 2007.
    We have had the discussion on what the law says, in terms 
of the rule of law. This flies in the face of what the rule of 
law is. However, the administration has claimed it has deported 
record numbers, and the reason they can claim that is because 
they talked about people who come across and are immediately 
deported, which, we did not use to count the numbers that way. 
So, we are playing games. We have a spin game going on with the 
administration in terms of what the factors are about real 
interior deportations.
    I give that to you so that when you work with this 
Committee--the one thing you find is we will work with anybody 
as long as they shoot straight with us. So, numbers are 
important, and how you get the numbers are important. So, if 
you change the baseline or change the denominator, you ought to 
be honest enough to tell us that, and I just put that forward.
    Mr. Chairman, I will stop right now and I will submit the 
rest of my questions for the record, or I will get them covered 
this afternoon.
    Ms. Saldana. Thank you, sir.
    Chairman Carper. Thank you, Dr. Coburn.
    Ms. Saldana, I am going to let you take a breath, have a 
drink of water---- [Laughter.]
    Chairman Carper [continuing]. And I will turn to your 
colleagues here, Mr. Deyo and Chairman Barnett, if I can.
    One of the folks who has testified before the Committee any 
number of times in the past was Jane Holl Lute, who was Deputy 
Secretary of the Department of Homeland Security. I thought she 
served with great effect. She was a very good leader. And, she 
used to go over and meet--sometimes, Secretary Napolitano would 
go, as well--but, they would go over and meet with the 
Government Accountability Office (GAO), Gene Dodaro who heads 
up GAO, and basically sit down with him and say, ``What do we 
have to do to get off your High-Risk List?''
    The High-Risk List is something the GAO puts out every 
year, about every other year, and it covers, really, our broad 
Federal Government, and the idea behind the High-Risk List is, 
how do we get better results for less money in almost 
everything we do? It is an invaluable service they provide. 
And, the question is what our agencies do with it. What do they 
do with it?
    DHS, as you may know, was on the High-Risk List for a 
number of years because they were unable to achieve unqualified 
financial statements, and now they have finally done that, 
after all these years. Others, they made real progress. The 
person who held this post before you, actually, was a very 
strong leader and manager.
    As you know, the management of this Department remains on 
GAO's High-Risk List, and we feel--I hope you do, too--that 
this is an operation that continues to need a lot of attention. 
The Department has an Inspector General. This Department's IG 
has also produced a considerable body of work related to 
management of the Department. Real progress has been made, and 
it has been made in the last 6 months, but also in the last 6 
years, and a lot of people have been responsible for that.
    But, more needs to be done. If it is not perfect, make it 
better. That is my motto. And, so, I would just say, what would 
your approach be to working with both the GAO and with the 
Inspector General to address the Department's major management 
challenges? What are some of those that still you think would 
require your immediate attention? How much would you work with 
GAO and the IG to achieve those?
    Mr. Deyo. Thank you, Chairman Carper. First, let me say, I 
had the benefit of a conversation with Jane Holl Lute 
telephonically, and I plan to meet with her again. I share your 
perception of her. I have also met with Rafael Borras and some 
of the other former Under Secretaries for Management, and I 
have a lot to learn from them. They have all been very 
helpful----
    Chairman Carper. You talked to Jane Holl Lute and Rafael 
Borras. Those are two of the smartest calls you could make. 
That is good.
    Mr. Deyo. I look forward to learning more from them.
    In terms of Inspector General and GAO, I know the benefit 
of independent oversight and receiving that kind of input and I 
welcome it, and I would intend to work closely with both GAO 
and the Inspector General in terms of understanding their 
concerns and being held accountable for addressing them. I 
think it should be in open, transparent discussions.
    To get a little bit deeper into it, but not too deep, when 
I think about my own personal priorities based on the 
preliminary views I have looked at, it pretty well aligns with 
the high-risk areas that GAO has identified, and I think that 
alignment underscores the value of the GAO input, as well as my 
concern about improving the management and the efficiency and 
effectiveness.
    I also had a conversation with George Scott at GAO and that 
was also very positive.
    Chairman Carper. OK. One of the reasons that the 
Department's management is on the High-Risk List is that its 
processes for planning and for overseeing major acquisitions 
are still relatively immature, at least by Federal standards. 
In general, GAO has found the Department has good policies on 
paper, but that many major acquisitions have moved forward 
without the kind of documentation and review that these 
policies actually require. And, the Department needs to find 
better ways to align planning and outcomes across the whole 
Department. This would both eliminate duplication, we hope, and 
to ensure that the resources are matched to the highest 
priorities.
    This is a large part of what Secretary Johnson calls his 
unity of effort. That is what it is largely all about. Based on 
your experiences, what is the proper balance, if you will, 
between an organization's headquarters and its components in 
terms of management and accountability?
    Mr. Deyo. First of all, I agree with you about the power of 
the unity of effort, and I also agree that the structure of the 
lifecycle management of acquisitions looks pretty good. What is 
needed is discipline about each stage review to make sure that 
the requirements are clearly defined, each step is being met 
before it moves on, and that takes discipline and it takes 
collaboration between the center and the components.
    I think it is a question of shared accountability, where 
both feel accountable for the outcomes that the--particularly 
on the highest priority acquisitions that are most critical to 
the mission, and we need to gain alignment with the components 
and the center on what those are. They need to be the highest 
priority, appropriately addressed, and put at the top of the 
list and managed well because the outcomes are so critical.
    So, it is shared accountability, it is management willing 
to demonstrate the benefits it is bringing to help the 
components fulfill their function, but also, if necessary, 
demonstrating the benefit of a common practice and process. 
Does that answer your question?
    Chairman Carper. Yes, I think so. I think you come close.
    Mr. Deyo. I have to see it firsthand to see how it really 
operates before I can delve too deeply.
    Chairman Carper. All right. As you may know, for the first 
time, this Department, the Department of Homeland Security, 
achieved a clean opinion on its financial statements in fiscal 
year 2013. A lot of people worked very hard, and that is 
regarded certainly by us as a major achievement, and it is one 
that we hold out regularly to our friends in the Department of 
Defense, who have been around a lot longer than DHS, and say, 
well, look what they have done at DHS. What kind of progress 
are you making at the Pentagon? And, they are starting to make 
some progress. But, actually, the example provided by DHS, and 
sort of the road map it has provided, is very helpful, of 
leadership by example, and we are using it, I hope, 
effectively.
    But, while that is a major achievement, of getting a clean 
financial opinion, I think the Department's success here was 
due in large part to the clear message that was sent from the 
top leadership of the Department for what was and remains an 
important goal. What would be your messaging to the rest of the 
Department about the importance of maintaining a clean audit? 
And, based on your reviews thus far of the Department's 
financial systems, to the extent you have been able to do that, 
what do you think should be the goals of the modernization of 
the financial systems? Any thoughts you have on that? What 
benefit might that bring to the efficiency, the efficient 
operation of the Department? Those three questions.
    Mr. Deyo. I share your view and applaud the success in 
getting a clean audit. That is a tremendous accomplishment. It 
is not meaningful, however, unless it is sustained, because you 
have to have confidence in those balance sheets, in those 
numbers on an annual basis. And, I know that the Department and 
the finance group are absolutely dedicated to making that 
happen.
    The next big piece, as far as I can see so far, is we need 
to have a fully integrated financial management system across 
all the components. You have to have reliable information so 
you can make smart budget decisions and have good analytics to 
make good strategic decisions. And, having ledger sheets that 
do not match up and you cannot compare apples to apples across 
the groups makes it very difficult to make informed strategic 
decisions.
    I think it is critical that the agency have a long-term 
focus, and you cannot do that if you do not have reliable data. 
So, that is an existent high priority within the finance group, 
and, indeed, with the leadership of the Department, and I 
strongly embrace that. At Johnson and Johnson, it would be 
unimaginable that, despite all the complexity and the 
decentralized nature, that there was not a common financial 
system so that you could accurately make strategic decisions 
and accurately report what the actual financial numbers were.
    Chairman Carper. All right. Good. Thank you. Thank you for 
that.
    Do you mind if we turn to Mickey Barnett for a while----
    Mr. Deyo. I would be pleased with that decision. I support 
that decision. [Laughter.]
    Chairman Carper. As I sometimes say when I ask questions 
like that, I say, ``I am Tom Carper, and I approve that 
message,'' so, all right.
    To our Chairman, we had some interesting conversations just 
this week with the Postmaster General, Pat Donahoe, and also 
with our Deputy Postmaster General, Ron Stroman, and some good 
conversations. Among the questions we have been exploring are, 
how is the Postal Service doing? For the most part, when we 
talk about the Postal Service, there is so much red ink, cut in 
half, reduce by half the workforce, reduce by half the mail 
processing centers, reduce the time that thousands of our Post 
Offices are open in rural communities across the country. The 
tone is actually pretty negative.
    But, as it turns out, in spite of all that, there is, I 
think, a remarkable transformation going on within the Postal 
Service. I have said any number of times in this room, the real 
key to success long-term for the Postal Service, I have 
learned, is how do we take this 200-plus-year-old distribution 
network and make it relevant, not just relevant, but successful 
and vibrant in a digital economy in the 21st Century, and it is 
possible to do that. And, little known to most of the people 
that I serve with and to the rest of this country, you are 
actually beginning to do that.
    And, one of the things we talked about, is how the First 
Class Mail continues to drop. That is a problem, because the 
Postal Service, for years, that has been your bread and butter. 
You make money doing other things, but that is the most 
profitable part of the business, and a lot of that business has 
gone away, especially in the last 7 years, as you know better 
than any of us.
    But, just as the Internet has taken away a lot of business 
for the Postal Service, it is in the process of giving it back, 
big time. I am going to ask you to talk a little bit about some 
of the new opportunities that are being pursued. Like, this 
morning, between 3 a.m. and 7 a.m. in San Francisco, the Postal 
Service is out there delivering groceries and doing this in 
partnership with, Amazon. I think it is with Amazon. I 
understand you are going to reach out to 100 grocery chains 
across the country. I think there are 32 ZIP codes in San 
Francisco.
    This took place this morning. You used your trucks, your 
vehicles that otherwise would not be doing anything to deliver 
the groceries. I think you folks have access to high-rise 
apartments because you Postal folks have keys, anyway, to get 
in to deliver the mail, and you have the opportunity to deliver 
the groceries, as well. So, you have these vehicles that 
otherwise would not be used. Let us put them to use. And, part 
of your skill sets is the ability to provide access to these 
buildings and better service, which is important.
    We understand that the deliveries you are making on Sundays 
for Amazon has grown from a couple hundred ZIP codes now to 
over 5,000, and growing. There is growth, continued growth in 
flat rate boxes. There is some, I think, good growth already in 
Priority Mail, and you are about to see a lot more of that, we 
think, as we come into the holiday season. So, those are all 
positives.
    I would just ask you to talk about this glass half-full 
story for the Postal Service, not just the glass empty or half-
empty, but talk to us about a glass half-full, what we need to 
do in this body to make sure that it is a glass half-full and 
that the Postal Service will not be a burden to the people of 
this country, the taxpayers, but it will be something we can 
all be enormously proud of. Please.
    Mr. Barnett. Thank you, Mr. Chairman, and also thank you to 
you and your staff, who I know have worked diligently now for 
years trying to get postal reform legislation, which we hope 
will eventually occur.
    It is half-full in all of the things you describe. The 
Board has been diligent at going everywhere we can go to meet 
with potential customers to expand our income opportunities. 
Some have been very fruitful, as the Chairman pointed out. 
Others are continuing to grow. The growth of small businesses 
and eBay and those kind of things are going to be large growths 
in small package delivery, of which we are well positioned to 
be the choice of the consumers or the businesses for delivery.
    It cannot be all half-good because we have competitors in 
the arena, which is great, and we would like to operate as they 
do, as a business. These are what we call the competitive sides 
of the business. They are not like first class, governed by 
monopolistic-type theories of utility regulation. However, we 
are not as nimble as we need to be because most of our--we can 
do trials, we can do tests, but everything else has to go to 
the Postal Regulatory Commission (PRC) for approval. That is a 
tedious, expensive, and very slow moving operation over there. 
And, so, we sometimes have great opportunities, great ideas, 
and it takes us months to get it to fruition.
    The test marketing for the grocery delivery has been a 
success. We saw film of them at 3 in the morning and film of 
them going to doorsteps and things like that. That ties in with 
a large amount of effort that the Board and management has done 
to try to come up with possibly a 21st Century mailbox, because 
as package delivery overtakes mail delivery, it has new 
problems. The two existing problems are where do you leave the 
packages if the party is not home, and second, our delivery 
vehicles are not now equipped to do the volume we need to stay 
solvent, particularly when they are 22 years old and they are 
designed for mail delivery, not package delivery. Now, we have 
some package delivery, but not near the volume that we hope to 
grow to.
    We, clearly, can be the last mile for every carrier in the 
country. We probably can do it more efficiently than they can 
in every area except probably a densely urban site. It is 
profitable for anybody to deliver in that environment. It is 
not as you go more rural, to your State or particularly my 
State out in the Southwest. Lots of things are very far apart, 
and we are well equipped to do it, and we need to, with 150-
million-plus delivery sites every day.
    I will not go through the litany of needing more 
flexibility on delivery time. We need help on Workers' Comp. We 
have a guy, 100 years old, that once worked 3 weeks for the 
Postal Service when he took office in 1957, worked 3 weeks, and 
he has been on Workers' Comp since then. That is a system that 
is broken and we need a way of, one, resolving the Workers' 
Comp benefits, and, two, having some date certain at which they 
convert to retirement.
    But, those are all postal reform ideas. The phenomenal 
success of Postmaster General Donahoe and the entire team at 
the Postal Service is unprecedented. The fact you could reduce 
your workforce by several hundred thousand people with no work 
stoppages, no labor unrest, no anything, is somewhat 
unprecedented in this country's history. It has all been done. 
Now, I am not saying there is not some concern over it, but it 
has been done very well.
    Second, the last time I appeared, we had some discussion 
about the difficulties faced in closing of rural Post Offices, 
those that have--and we reached a very good compromise at 
reducing them to 2 hours a day, 4 hours a day, or 6 hours a 
day. That has worked very well. So, there has been--I will call 
that a political solution, but a compromise solution to that 
sort of thing. And, by and large, the uproar seems to have died 
about that and most people, 2 hours a day is plenty for the 
hundred people that may live in the vicinity of a rural Post 
Office.
    Chairman Carper. As I understand it, what the Postal 
Service did, and I thought this was smart, they asked the 
question, how would I want to be treated if I lived in one of 
these several thousands of communities where there is not a 
whole lot of volume by the Post Office, but there is a desire 
to continue to have that Postal Service in some form, and what 
I think you did in thousands of communities, you just basically 
said to them, well, here is a menu of options. Which would be 
most desirable or preferable to you? You can have your Post 
Office open, maybe, 2, 4, 6 hours a day, not by a full-time 
Postmaster, but by someone who is going to come in, maybe make 
$15 an hour to make sure that service is provided on a daily 
basis most days.
    You said, you could have the option of, like, the rural 
letter carrier, who will say that your table there encompasses 
an area that is serviced by a rural letter carrier and each of 
your name tags represents a different spot around the route 
that the carrier goes to, and where Ms. Saldana's name tag, at 
8 in the morning, the rural letter carrier will be there to be 
a mobile Post Office, almost like a bookmobile. And, then, 
where Mr. Deyo's name tag is, that will be a 9 stop, where he 
can provide, like, a mobile Post Office. And, where your name 
is, it would be 10. I thought that was a pretty good option 
that was provided to folks in rural areas.
    Another option was, maybe, to co-locate the Post Office 
with a general store, a convenience store that offers, 
actually, longer hours of operation than might otherwise be 
available.
    I think that was very smart, and the communities could 
actually say, we like this, we do not like that, and have a 
real say in it. I thought that was smart.
    In terms of what we can do--Congress, working with the 
President--what we can do to further facilitate and nurture, 
promote innovation, what can we do to enable you, the Postal 
Service, to find new ways to make money, maybe things that you 
are thinking of doing, maybe even that you are beginning to do 
that we can actually then have great potential. People talk a 
lot about other countries, the Postal Service delivers wine, 
beer, spirits. We do not do that here, although FedEx and UPS 
do. Is that an area that you need authorization? But, there are 
other ideas. Where do we come into this and where can we be 
helpful?
    Mr. Barnett. The primary way, I think, the Congress would 
come in, and the President, would be to free us up to do it. We 
are treated as a utility, which was certainly a reasonable 
model for a couple hundred years, because we were more like a 
utility. This side of the business we are talking about on 
package delivery is extremely competitive and there is no 
longer any need to regulate it as a utility, and we would 
encourage you to take most of the rules and regulations off, 
let us operate.
    The Board is very cognizant--the way this is set up, we are 
all appointed to represent the public, but we recognize the 
public is lots of things. The business community is part of the 
public, as well. Obviously, the consumers, the residences, the 
businesses that mail is delivered to, or packages. We take all 
that into account. We are not going to go crazy and use 
monopolistic-type powers to go drive somebody out of business.
    Chairman Carper. The Postal Service is not interested in 
becoming a bank, is it?
    Mr. Barnett. No, it is not.
    Chairman Carper. Are you interested in becoming an 
insurance company?
    Mr. Barnett. No. There has been nobody on the Board, 
whatsoever. And, in fact, a great deal of time has been spent 
over this recent boomlet of being small loan offices or banks 
or that sort of thing, and that is not our core function. We do 
not think we could make any money doing it. And, we think we 
should focus on the future, which is small package delivery. We 
are looking at other things, some I would probably rather not 
say in an open Committee meeting----
    Chairman Carper. Fine.
    Mr. Barnett [continuing]. But, there are certainly things 
in the digital area that we think we can do. But, we have not 
completed the task of getting to monetize something we think 
could be a very valuable service. The Post Office is the most 
trusted governmental agency, based on every study for the past 
10 years.
    Chairman Carper. Does that include the Senate offices of 
Dr. Coburn and myself?
    Mr. Barnett. I do not know if the survey did, Mr. Chairman. 
I am certain you were higher than we were. I do not know.
    Chairman Carper. I do not know about that. [Laughter.]
    Mr. Barnett. But, that is what we would like to get into, 
if we possibly can.
    Chairman Carper. OK. Let me just mention a couple of other 
opportunities I think are good ones. A lot of people are going 
to be voting over the next couple of months, especially in 
Oregon and in----
    Mr. Barnett. Colorado.
    Chairman Carper [continuing]. I want to say Washington----
    Mr. Barnett. And Colorado, as well.
    Chairman Carper. Yes. But, now they vote by mail, and they 
have a very good turnout compared to the rest of the country. I 
think it is cost effective. And, as you say, Colorado is now 
going to try it, too. I think that is potentially not just a 
good piece of business for the Postal Service, but, actually, 
something that could be very good for our country as we seek to 
encourage folks to exercise their Constitutional right, maybe 
even to save some money in doing that.
    I heard, for the first time, I was talking with the 
Postmaster General and the Deputy the other day about if we 
actually do pass comprehensive immigration reform, which I hope 
we will, I think it would actually make the job of defending 
our borders easier, not harder. But, if we end up with a 
situation where 10 million people living in this country need 
to get some kind of documentation about their legal status, 
they are going to have to get it somewhere, and a lot of folks 
get their passports from the Postal Service and there might be 
an opportunity to find a way for the Postal Service to meet 
this need, if we do pass some kind of comprehensive immigration 
reform.
    And, I am told that there are actually some centers, one of 
them just outside of L.A., where the Postal Service has, like, 
a pretty big facility for the issuance of passports, and people 
come in--it almost sounds like a Department of Motor Vehicles 
facility where people come in and they get their drivers' 
licenses and stuff like that, but whole families come in to 
apply for passports and get good service using technology. That 
is a piece of business, I think, that could be pretty good.
    And, you mentioned a couple ideas in the digital world. I 
am encouraged by all that.
    There are some things that we need to do, and one of those 
is to give you the opportunity, when you have a good idea, when 
it does not tread all over or walk all over other providers of 
those services from, say, the private sector, that we give the 
chance to do that.
    The other thing, though, the 800-pound gorilla in the room 
on the Postal Service, is with respect to health care. My wife 
just retired from DuPont. She actually retired about 5 years 
ago, and she teaches now full-time at the University of 
Delaware. But, she has just turned 65. She looks about 45, and 
if you see her, tell her I said that, but it is true. 
[Laughter.]
    But, when she turned 65, the DuPont Company reached out to 
her and said, we love you, Martha, but you are 65 now. You are 
eligible for Medicare. We want you to sign up for Medicare Part 
A, Part B, Part D, and, by the way, we will provide wrap-around 
coverage, health coverage, for you that fills the gaps, and 
they do that for all the retirees who reach 65. Frankly, so do 
hundreds, maybe thousands, of other companies in America who do 
that. That is what they do, including those that compete with 
the Postal Service. The Postal Service cannot do that. They 
would like to. As a matter of equity, they pay more money into 
Medicare than any other employer in the country, but they do 
not get fair value for their money.
    So, a big part of helping the Postal Service to right its 
ship financially is to address this problem, this challenge, 
and there is a way to do that that is, I think, fair and 
equitable for retirees, for the taxpayers, as well, and I think 
that is a big one for us to take up.
    The other thing I would say is for us--and you have not 
said this directly, but we need--there is an adjutant rate case 
that has been decided by the Postal Regulatory Commission for 
the short term, usually about a 4.3 percent rate hike, and it 
is temporary. It does not last forever. And, what our bill that 
reported out of Committee, Dr. Coburn and I led on, is that 
that temporary rate increase actually would become the new 
baseline, the new revenue baseline, which we think is 
appropriate, given all the cuts that the Postal Service has 
made rightsizing your operation. We think that is part of what 
the Congress can and should do.
    If we do all of that and you do your part--I think we are 
in a position to recapitalize the Postal Service. And, as I 
mentioned today, there are 32 ZIP codes, San Francisco 
groceries being delivered for Amazon, apparently going pretty 
well. Not all those trucks that are being used in those 32 ZIP 
codes, certainly not all the trucks going across the country, 
whether it is on Sundays in those 5,500 ZIP codes, whether it 
is today or any other day of the week, they are not rightsized 
for delivering packages and parcels. And, when you are 
delivering groceries in Phoenix, Arizona, some day, and it is 
98 degree outside and you are delivering ice cream and you have 
a truck that is 98 degrees warm, I do not know how that works 
as a delivery vehicle. So, some work needs to be done on the 
fleet.
    But, you have 190,000 vehicles, 22 years old, on average. 
They are energy inefficient. They do not have the kind of 
technology onboard that can enable them to communicate with, 
literally, with their counterparts, much less with their 
customers, and we can address all of this.
    And, the last thing I would say is, in North Dakota with 
member Heidi Heitkamp, a Member of this Committee, valued 
Member of this Committee, and we visited a mail processing 
center, and it was a fairly small one, but we went into the 
back of the operation just to see how they did it and I 
remember this one guy carrying around these big old boxes and 
moving them from place to place, trying to get the bar code 
reader on them and then get them ready to be shipped out. Part 
of what we would do if we could recapitalize the Postal Service 
is not just replace the fleet over 3 or 4 years to modernize 
it, we can also modernize the mail handling operation, 
especially with respect to packages and parcels and all of 
that. And, there is some really cool technology we can put on 
the vehicles and some really cool technology we can put in Post 
Offices, which basically look pretty much like they have looked 
like for years, and provide better service to folks.
    This is definitely glass half-full, and the question is, 
are we going to continue to fill it and enable you to do your 
share? I sure hope that we will.
    The last question I would ask is this. How many people 
under the law can serve at any one time on the Postal Board of 
Governors? How many people?
    Mr. Barnett. Nine.
    Chairman Carper. And, how many people serve on it today?
    Mr. Barnett. Four.
    Chairman Carper. And, so, you Chair a Board of Governors 
that has three other Governors, and your term expires, is it 
sometime later this year?
    Mr. Barnett. December 8.
    Chairman Carper. OK. So, on December 9, if we do not do 
something, how many people are serving on the Board on 
Governors?
    Mr. Barnett. We will be down to three, and two of those 
three, next year is their last year.
    Chairman Carper. All right. Not a good situation.
    Mr. Barnett. It is not, and we really hope you will send us 
several more.
    Chairman Carper. Dr. Coburn and I had a hearing here, maybe 
2 months ago----
    Mr. Barnett. Right.
    Chairman Carper [continuing]. With, I think, four nominees 
from the President, several Democrats, I think at least one 
Republican, and your name, if we can basically act this year, 
and I fervently hope that we will--I would like to act this 
week on the nominations, but we need to act this year--some of 
the Democratic nominees are probably not greatly favored by 
some of our Republican colleagues, and the converse of that is 
true, as well. We need to get over that. This is a good, 
balanced group of nominees, and the most important element I 
have ever seen in any organization I have ever been a part of, 
whether it was in the military, or whether it was academia, 
whether it was in business, whether it was here in this 
operation, athletic teams, leadership is the key. Leadership is 
the key, and we need strong leadership, and that includes the 
Board of Trustees.
    Mr. Barnett. Mr. Chairman, in the more than 8 years I have 
been on the Board of Governors, every decision has been by 
consensus. There has not been any friction on a partisan basis 
in the slightest. We have reached consensus on every issue.
    Chairman Carper. That is an important point.
    Let me just turn to our staff that are here and see if 
there are any other questions that they would have me ask 
before we excuse you.
    [Pause.]
    The staff members have said they think these are the best 
three witnesses we have ever had. [Laughter.]
    And, they have gone to say, they wish we could clone you 
all and have you serve in other responsibilities across our 
Federal Government. We are working on cloning at the University 
of Delaware and Delaware State University, it is a partnership, 
and we will see how that turns out.
    Seriously, this has been enjoyable, informative, and, at 
times, inspiring. We are grateful for what you have already 
done for our country and what you are willing to do going 
forward.
    The nominees have filed responses to biographical and 
financial questionnaires, answered pre-hearing questions 
submitted by the Committee, and had their financial statements 
reviewed by the Office of Government Ethics. Without objection, 
this information will be made part of the hearing record, with 
the exception of the financial data, which are on file and are 
available for public inspection in the Committee offices.
    With that, the hearing record will remain open until noon 
tomorrow, that is September 18, until 12 p.m., for the 
submission of statements and questions for the record.
    Do any of you have any last words you would like to leave 
us with? We always give you a chance to give an opening 
statement. I also give our witnesses a chance to make a very 
brief closing statement, so this would be your opportunity to 
get in the last word. Ms. Saldana.
    Ms. Saldana. Senator, I just am marveling at this process, 
and I have learned a civics lesson today and I truly appreciate 
your consideration of my nomination. Thank you.
    Chairman Carper. You are nice to say that. Thank you. Mr. 
Deyo.
    Mr. Deyo. I join in those same comments. Thank you very 
much, Mr. Chairman. And, I would like to congratulate the staff 
members. They have been very easy to work with, but direct, 
which is exactly how it should be.
    Chairman Carper. Good. I always say, I like to surround 
myself with people smarter than me. My wife says, it is not 
hard to find them. [Laughter.]
    Mr. Deyo. I have heard that myself.
    Chairman Carper. I will say this. I noticed when you were 
speaking, Mr. Deyo, I was watching your wife's lips move when 
you spoke. [Laughter.]
    I think after--how many years have you been married? What 
is it?
    Mr. Deyo. Forty-three.
    Chairman Carper. You two have this down pretty well, so 
that is good.
    Mr. Deyo. Thanks for letting me know.
    Chairman Carper. Sure. [Laughter.]
    Chairman Barnett, any last word?
    Mr. Barnett. No, sir.
    Chairman Carper. OK. All right. With that, this hearing is 
adjourned and we thank you all so much.
    [Whereupon, at 11:47 a.m., the Committee was adjourned.]
                            
                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
